NO. 19IN THE

Supreme Court of the United States
ELEAZAR CORRAL VALENZUELA,

v.
UNITED STATES OF AMERICA,

Petitioner,

Respondent.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this fourth day of October 2019, I have served three (3) true
copies of the Petition for Writ of Certiorari by express mail, postage
prepaid, addressed as follows:
Office of the Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

